/Ay)pe,y\ci \ X

i

A

IN THE COURT OF APPEALS OF THE STATE OF OREGON
HAMID MICHAEL HEJAZI,
Plaintiff-Appellant,

v.
DOWNTOWN EUGENE, INC
Defendant.
Lane County Circuit Court No. 20CV17618
Court of Appeals No. A174873
ORDER OF DISMISSAL
On October 31, 2020, appellant filed a notice of appeal from a general judgment,
entered October 2, 2020, dismissing the case for lack of service. Under ORS 19.255, a
notice of appeal must be served and filed within 30 days after the date the judgment is
entered. Further, under ORS 19.270(2), timely service of the notice of appeal on all
parties identified in the notice of appeal as adverse parties is jurisdictional and may not
be waived or extended. By appellant’s own admission, the notice of appeal has not
been served on the respondent identified in the notice of appeal. Any attempt at serving
respondent now would be well past the 30 days after entry of judgment requirement.
Therefore, on that ground, the court on its own motion dismisses the appeal.
Appeal dismissed.

THERESA M. KIDD
APPELLATE COMMISSIONER
2/2/2021 10:39 AM

DESIGNATION OF PREVAILING PARTY AND AWARD OF COSTS
Prevailing party:
Costs: No costs allowed

c: Hamid Michael Hejazi
Downtown Eugene, Inc
ej

ORDER OF DISMISSAL
REPLIES SHOULD BE DIRECTED TO: State Court Administrator, Records Section,
Supreme Court Building, 1163 State Street, Salem, OR 97301-2563
Page 1 of 1

II
f

;

II

a
l
ii
!l

II
\

r

i

I
il

7

*
1

IN THE SUPREME COURT OF THE STATE OF OREGON
HAMID MICHAEL HEJAZI,
Plaintiff-Appellant,
Petitioner on Review,
v.
DOWNTOWN EUGENE, INC,
Defendant,
Respondent on Review.
Court of Appeals
A174873
S068458
ORDER DENYING REVIEW
Upon consideration by the court.
The court has considered the petition for review and orders that it be denied.

MARTHA L WALTERS
CHIEF JUSTICE, SUPREME COURT
5/20/2021 10:44 AM

c: vWamid Michael Hejazi
Downtown Eugene
ms

ORDER DENYING REVIEW
REPLIES SHOULD BE DIRECTED TO: State Court Administrator, Records Section,
Supreme Court Building, 1163 State Street, Salem, OR 97301-2563
Page 1 of 1

